No. 20A62
IN THE SUPREME COURT OF THE UNITED STATES
WILBUR L. ROSS, JR., SECRETARY OF
COMMERCE, ET AL., APPLICANTS
v.
NATIONAL URBAN LEAGUE, ET AL.

CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with a copy of
the REPLY IN SUPPORT OF APPLICATION FOR A STAY PENDING APPEAL TO
THE UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT AND
PENDING FURTHER PROCEEDINGS IN THIS COURT AND REQUEST FOR AN
IMMEDIATE ADMINISTRATIVE STAY, via e-mail, this 10th day of October 2020.
[See Attached Service List]

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 10, 2020
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

SERVICE LIST:
20A- WILBUR L. ROSS, JR., SECRETARY OF COMMERCE, ET AL. V. NATIONAL
URBAN LEAGUE, ET AL.
POOJA CHAUDHURI
AFAY P. SAINI
EZRA D. ROSENBERG
KRISTEN CLARKE
LAWYERS’ COMMITTEE FOR CIVIL RIGHTS UNDER LAW
1500 K STREET, NW
STE. 900
WASHINGTON, DC 20005
415-736-1414
202-662-8304
202-662-8345
PCHAUDHURI7@GMAIL.COM
ASAINI@LAWYERSCOMMITTEE.ORG
EROSENBERG@LAWYERSCOMMITTEE.ORG
KCLARK@LAWYERSCOMMITTEE.ORG
AMIT MAKKER
SHANNON DANIELLE LANKENAU
STEVEN MARK BAUER
SADIK HARRY HUSENY
LATHAM & WATKINS LLP
505 MONTGOMERY STREET
STE. 2000
SAN FRANCISCO, CA 94111
415-395-8034
415-391-0600
AMIT.MAKKER@LW.COM
SHANNON.LANKENAU@LW.COM
STEVE.BAUER@LW.COM
ANN WYLDE ROBINSON
GEMMA DONOFRI
GENEVIEVE P. HOFFMAN
MELISSA ARBUS SHERRY
RICHARD P. BRESS
TYCE RANDALL WALTERS
LATHAM & WATKINS LLP
555 ELEVENTH STREET, NW
STE. 1000
WASHINGTON, DC 20004-1304
202-637-2200
ANNE.ROBINSON@LW.COM
GEMMA.DONOFRIO@LW.COM
GENEVIEVE.HOFFMAN@LW.COM

MELISSA.SHERRY@LW.COM
RICK.BRESS@LW.COM
TYCE.WALTERS@LW.COM
JON GREENBAUM
LAWYERS’ COMMITTEE FOR CIVIL RIGHTS UNDER LAW
1401 NEW YORK AVE., NW
STE 400
WASHINGTON, DC 20005
202-662-8315
JGREENBAUM@LAWYERSCOMMITTEE.ORG
KELLY MARITA PERCIVAL
THOMAS PATRICK WOLF
WENDY R. WEISER
THE BRENNAN CENTER FOR JUSTICE
AT NYU SCHOOL OF LAW
120 BROADWAY
STE. 1750
NEW YORK, NY 10271
646-925-8758
732-740-5578
646-292-8310
PERCIVALK@BRENNANLAW.NYU.EDU
WOLFT@BRENNN.LAW.NYU.EDU
WEISERW@BRENNAN.LW.NYU.EDU
DANIELLE LUCE GOLDSTEIN
OFFICE OF LOS ANGELES
CITY ATTORNEY
200 NORTH SPRING STREET
14TH FLOOR
LOS ANGELES, CA 90012
213-978-1862
DANIELLE.GOLDSTEIN@LACITY.ORG
MICHAEL NELSON FEUER
KATHLEEN ALICE KENEALY
MICHAEL JOSEPH DUNDAS
LOS ANGELES CITY ATTORNEY OFFICE
200 N. MAIN STREET
CITY HALL EAST, STE. 800
LOS ANGELES, CA 90012
213-978-8100
213-978-8354
213-978-8100
MIKE.FEUER@LACITY.ORG
KATHLEEN.KENEALY@LACITY.ORG
MIKE.DUNDAS@LACITY.ORG

CHRISTOPHER ALAN CALIHAN
MICHAEL DAVID MUTALIPASSI
CITY ATTORNEY
200 LINCOLN AVE.
SALINAS, CA 93901
831-758-7256
CHRISC@CI.SALINAS.CA.US
MICHAELMU@CI.SALINAS.CA.US
MARK DALE ROSENBAUM
PUBLIC COUNSEL
610 SOUTH ARDMORE AVE.
LOS ANGELES, CA 9005
213-385-2977
MROSENBAUM@PUBLICCOUNSEL.ORG
DOREEN MCPAUL
JASON M. SEARLE
NAVAJO NATION DEPARTMENT OF JUSTICE
P.O. BOX 2010
WINDOW ROCK, AZ 86515
928-871-6345
928-871-6210
DOMCPAUL@NNDOJ.ORG
JASERLE@NNDOJ.ORG
MARK FLESSNER
STEPHEN J. KANE
CORPORATION COUNSEL FOR
THE CITY OF CHICAGO
121 SSN LASALLE STREET
ROOM 600
CHICAGO, IL 60602
LILY E. HOUGH
RAAFE SARKIS BALABANIAN
123 TOWNSEND STREET
STE. 100
SAN FRANCISCO, CA 94107
415-212-9300
LHOUGH@EDELSON.COM
RBALABANIAN@EDELSON.COM
REBECCA HIRSCH
CITY OF CHICAGO
121 N. LASALLE STREET
ROOM 600

CHICAGO, IL 60602
312-744-8143
REBECCA.HIRSCH2@CITYOFCHICAGO.ORG
JACQUELINE NICOLE HARVEY
DANIEL PATRICK KAPPES
DAVID ILAN HOLTZMAN
HOLLAND & KNIGHT LLP
50 CALIFORNIA STREET
SUITE 2800
SAN FRANCISCO, CA 94111
415-743-6900
JACQUELINE.HARVEY@HKLAW.COM
DANIEL.KAPPES@HKLAW.COM
DAVID.HOLTZMAN@HKLAW.COM
DARIO JOSEPH FROMMER
AKIN GUMP STRAUSS HAUER & FELD LLP
1999 AVENUE OF THE STARS
SUITE 600
LOS ANGELES, CA 90067-6022
213-254-1270
DFROMMER@AKINGUMP.COM
DANOALD R. PONGRACE
AKIN GUMP STRAUSS HAUER & FELD LLP
2001 K STREET NW
WASHINGTON, DC 20006-1037
202-887-4000
DPONGRACE@AKINGUMP.COM
Joseph Scott St. John
Louisiana Department of Justice
Office of the Attorney General
909 Poydras Street
Suite 1850
SECOND ACCOUNT
New Orleans, LA 70112
225-485-2458
Email: stjohnj@ag.louisiana.gov
Bradley A. Benbrook
Benbrook Law Group
400 Capitol Mall, Suite 1610
Sacramento, CA 95814
916-447-4900
Fax: 916-447-4904
Email: brad@benbrooklawgroup.com

Lynn Fitch
Office of Mississippi Attorney General
P.O. Box 220
Jackson, MS 39205
601-359-3680

